Department of Health and Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





   DRUG MANUFACTURERS’

   NONCOMPLIANCE WITH 

AVERAGE MANUFACTURER PRICE 

  REPORTING REQUIREMENTS





                    Daniel R. Levinson

                     Inspector General 


                     September 2010

                     OEI-03-09-00060

   E X E C U T I V E                       S U M M A R Y


                  OBJECTIVES
                  1. To determine whether manufacturers submitted 2008 average
                     manufacturer prices (AMP) to the Centers for Medicare & Medicaid
                     Services (CMS) within the timeframes specified by Federal
                     requirements.

                  2. To determine whether CMS has taken action against manufacturers
                     that did not submit AMP data within the timeframes specified by
                     Federal requirements.


                  BACKGROUND
                  The Social Security Act sets forth price reporting obligations for certain
                  manufacturers, including the obligation to report AMP data to CMS.
                  During 2008, AMP was generally defined by statute to be the average
                  price paid to the manufacturer for the drug in the United States by
                  wholesalers for drugs distributed to the retail pharmacy class of trade.
                  Manufacturers must provide CMS with the AMP for each of their
                  covered outpatient drugs within 30 days after the end of each month
                  and each quarter.

                  Manufacturer-reported AMPs play a critical role in Government
                  payments for prescription drugs. Currently, AMPs provided by
                  manufacturers on a quarterly basis are used to calculate the rebate
                  amounts owed to States under the Medicaid drug rebate program.
                  Quarterly AMPs are also used to establish ceiling prices in the
                  340B program, which is a prescription drug discount program
                  administered by the Health Resources and Services Administration.

                  In addition, consistent with the Deficit Reduction Act of 2005 (DRA) and
                  the Patient Protection and Affordable Care Act, AMPs reported on a
                  monthly basis are to be used to establish Federal upper limit amounts
                  in the Medicaid program. The DRA also requires CMS to disclose AMP
                  data to State Medicaid programs, which would enable States to use
                  monthly AMP data when setting Medicaid reimbursement rates for
                  prescription drugs. Although an injunction currently prohibits CMS
                  from using AMPs in a way that affects Medicaid reimbursement rates
                  and from disclosing AMPs to States, AMP data could be used for these
                  purposes in the future.

                  According to statute, manufacturers that fail to provide timely AMP
                  data may be subject to civil money penalties and/or termination from
                  the drug rebate program. Because the responsibility to impose civil
OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                   i
E X E C U T I V E                S U       M M A R Y


                   money penalties has been delegated to the Office of Inspector General
                   (OIG), CMS may refer noncompliant manufacturers to OIG for the
                   purpose of imposing such penalties in appropriate cases. CMS also has
                   authority to terminate the rebate agreements of drug manufacturers
                   that fail to meet price reporting requirements.

                   For this study, we obtained manufacturer-reported drug product data
                   and AMP data for each month and quarter of 2008, including the dates
                   on which the AMPs were initially certified by manufacturers. For each
                   drug product included in our study, we determined the months and
                   quarters for which AMPs were submitted late or not at all. We then
                   summarized the results for each month and quarter to identify
                   manufacturers that (1) had missing data, i.e., submitted no AMP data
                   for any of their drug products; (2) had late AMP data, i.e., submitted
                   AMP data for all of their drug products after the deadline; or (3) had
                   incomplete AMP data, i.e., submitted at least some of their AMPs by the
                   deadline but submitted the remaining AMPs either late or not at all or
                   submitted a portion of their AMPs late and never submitted the
                   remaining AMPs.

                   We also determined whether manufacturers that failed to submit timely
                   monthly or quarterly AMP data during 2008 were terminated by CMS
                   or referred by CMS to OIG for potential civil money penalties.


                   FINDINGS
                   In 2008, more than half of manufacturers did not fully comply with
                   quarterly submission requirements for AMP data. Of the
                   592 manufacturers that were required to submit quarterly AMP data
                   during 2008, 313 (53 percent) failed to provide pricing data by the
                   statutorily defined due date.

                   Sixteen of the manufacturers under review had missing AMP data for all
                   of their drug products in multiple quarters. Forty-eight of the
                   manufacturers under review submitted late AMP data for all of their
                   drug products in multiple quarters. One hundred twenty of the
                   manufacturers under review submitted incomplete AMP data in multiple
                   quarters.
                   In 2008, more than three-fourths of manufacturers did not fully
                   comply with monthly submission requirements for AMP data. Of the
                   579 manufacturers that were required to submit monthly AMP data
                   during 2008, 453 (78 percent) failed to provide pricing data by the
                   statutorily defined due date.

 OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                    ii
E X E C U T I V E                S U       M M A R Y


                   Forty of the manufacturers in our review had missing AMP data for all of
                   their drug products in multiple months. One hundred forty-eight of the
                   manufacturers under review had late AMP data for all of their drug
                   products in multiple months. Two hundred twenty-seven of the
                   manufacturers under review had incomplete AMP data in multiple
                   months.
                   CMS took action against some manufacturers for failure to comply
                   with quarterly AMP reporting requirements but took no action for
                   failure to comply with monthly reporting requirements. In total,
                   78 manufacturers were referred to OIG and/or terminated by CMS for
                   failure to comply with quarterly AMP reporting requirements in 2008. Of
                   these 78 manufacturers, 52 were only referred to OIG, 4 were only
                   terminated by CMS, and the remaining 22 were both referred to OIG and
                   subsequently terminated by CMS. Although CMS tracks manufacturers
                   that report either no monthly AMP data or less than 90 percent of their
                   monthly AMP data, it does not refer or terminate those manufacturers.
                   However, some noncompliant manufacturers are referred or terminated by
                   CMS because they also have missing or late quarterly AMP data.


                   RECOMMENDATIONS
                   Because AMP data currently play such a critical role in Government
                   payments for prescription drugs and may play an even greater role in
                   the future, CMS should ensure that action is taken against
                   noncompliant manufacturers. Drug manufacturers must also do their
                   part by reporting both quarterly and monthly AMP data to CMS in a
                   timely and accurate way.

                   To promote compliance with quarterly and monthly AMP reporting
                   requirements and to help ensure that Medicaid and covered 340B
                   entities do not overpay for prescription drugs, we recommend that CMS:
                   Take action against manufacturers that submit incomplete quarterly
                   AMP data.
                   Take action against manufacturers that fail to submit monthly AMP
                   data in a timely manner.




 OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                    iii
E X E C U T I V E                S U       M M A R Y




                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with both recommendations and stated that it will begin
                   referring manufacturers that submit incomplete quarterly and monthly
                   data to OIG for civil money penalty consideration. OIG looks forward to
                   expanding its collaboration with CMS regarding administrative
                   remedies for noncompliance with AMP reporting requirements.




 OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                    iv
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    In 2008, more than half of manufacturers did not fully comply
                    with quarterly submission requirements for AMP data . . . . . . . . 10

                    In 2008, more than three-fourths of manufacturers did not fully
                    comply with monthly submission requirements for AMP data . . . 12

                    CMS took action against some manufacturers for failure to
                    comply with quarterly AMP reporting requirements but
                    took no action for failure to comply with monthly reporting
                    requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                    Agency Comments and Office of Inspector General Response . . . 19


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                    A: Current and Future Uses of Average Manufacturer Price
                       Data in Federal Health Care Programs . . . . . . . . . . . . . . . . . . 20

                    B: Manufacturers With Missing and Late
                       Quarterly Average Manufacturer Price Data . . . . . . . . . . . . . 24

                    C: Manufacturers With Missing and Late
                       Monthly Average Manufacturer Price Data. . . . . . . . . . . . . . . 25

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
I N T R O D
    I N T R UO CD TU I CO TN I O N


                   OBJECTIVES
                   1. To determine whether manufacturers submitted 2008 average
                      manufacturer prices (AMP) to the Centers for Medicare & Medicaid
                      Services (CMS) within the timeframes specified by Federal
                      requirements.

                   2. To determine whether CMS has taken action against manufacturers
                      that did not submit AMP data within the timeframes specified by
                      Federal requirements.


                   BACKGROUND
                   The Social Security Act (the Act) and Federal regulations set forth price
                   reporting obligations for certain drug manufacturers, including the
                   obligation to report AMP data to CMS on quarterly and monthly bases. 1
                   During 2008, AMP was generally defined by statute to be the average
                   price paid to the manufacturer for the drug in the United States by
                   wholesalers for drugs distributed to the retail pharmacy class of
                   trade. 2, 3
                   Manufacturer-reported AMPs play a critical role in Government
                   payments for prescription drugs. Currently, AMPs provided by
                   manufacturers on a quarterly basis are used to calculate the rebate
                   amounts owed to States under the Medicaid drug rebate program.
                   Quarterly AMPs are also used to establish ceiling prices in the 340B
                   program, which is a prescription drug discount program for covered
                   entities that is administered by the Health Resources and Services
                   Administration (HRSA).
                   In addition, consistent with the Deficit Reduction Act of 2005 (DRA) and
                   the Patient Protection and Affordable Care Act (Affordable Care Act), 4
                   monthly AMPs are to be used to establish Federal upper limit (FUL)



                   1 Section 1927(b)(3) of the Act and 42 CFR §§ 447.510(a) and (d). Price reporting obligations
                   apply to manufacturers that participate in the Medicaid drug rebate program.
                   2 Section 1927(k)(1) of the Act.
                   3 The AMP is generally calculated as a weighted average of prices for a manufacturer’s
                   package sizes of a drug sold during a given quarter and is reported for the lowest
                   identifiable quantity of the drug as measured by one of eight unit types: capsule, tablet,
                   milliliter, gram, each, suppository, transdermal patch, and injectable antihemophilic factor
                   unit. For example, an AMP might be submitted for 1 tablet, 1 milliliter, or 1 gram.
                   4 P.L. 109-171 and P.L. 111-148, respectively.




 OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                              1
I N T R O D        U C T       I O N


                    amounts in the Medicaid program. 5 The DRA also requires CMS to
                    disclose AMP data to State Medicaid programs, which would enable
                    States to use monthly AMP data when setting Medicaid reimbursement
                    rates for prescription drugs. 6 Although a preliminary injunction from a
                    Federal district court currently prohibits CMS from using AMPs in a
                    way that affects Medicaid reimbursement rates and from disclosing
                    AMPs to States, AMP data could be used for these purposes in the
                    future. 7
                    If quarterly and monthly AMPs are not reported in a timely manner,
                    (1) CMS may not have complete data on which to base Medicaid rebates
                    and future FUL amounts, 8 (2) HRSA may be unable to establish ceiling
                    prices under the 340B program, and (3) States may be unable to use
                    AMPs for Medicaid reimbursement purposes. 9 As a result, the Medicaid
                    program and covered entities participating in the 340B program could
                    potentially overpay for prescription drugs.

                    For more detailed information about the current and future uses of
                    AMP data in Federal health care programs, see Appendix A.
                    AMP Reporting Requirements
                    For Federal payment to be available for covered outpatient drugs
                    provided under Medicaid, the Act mandates that drug manufacturers
                    enter into rebate agreements with the Secretary of Health & Human
                    Services (the Secretary) and pay quarterly rebates to State Medicaid
                    agencies. 10


                    5 Prior to the DRA, manufacturers were required to submit only quarterly AMPs. However,
                    section 6001 of the DRA and section 2503(b)(1)(A) of the Affordable Care Act expanded
                    manufacturers’ reporting requirements to include, respectively, monthly AMPs and the
                    total number of units used to calculate those monthly AMPs. Section 2503(a)(1)(B) of the
                    Affordable Care Act establishes monthly AMPs as the new basis for FUL amounts.
                    6 Section 6001 of the DRA.
                    7 National Association of Chain    Drug Stores, et al., v. U.S. Department of Health & Human
                    Services, et al., Civil Action No. 1:07cv02017, order dated December 19, 2007.
                    8 If a manufacturer does not submit timely or complete AMP data, the manufacturer must
                    manually calculate rebate amounts and send rebate payments to States. Therefore,
                    although CMS cannot calculate a rebate amount, States may nonetheless receive rebate
                    payments for drug products with missing AMPs.
                    9 According to a 2007 Office of Inspector General (OIG) report entitled
                                                                                       States’ Use of New
                    Drug Pricing Data in the Medicaid Program (OEI-03-06-00490), most States had yet to
                    decide as of October 2006 whether to use AMP data for Medicaid drug reimbursement.
                    Some States raised concerns about missing AMP data, AMP outliers, and the correlation
                    between AMPs and acquisition costs. Undecided States would like assurances from CMS
                    that the AMP data are accurate and valid.
                    10 Sections 1927(a)(1) and (b)(1) of the Act.



 OEI-03-09-00060    D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                               2
I N T R O D        U C T       I O N


                    Under these rebate agreements and pursuant to the Act, manufacturers
                    must make regular reports to CMS of the AMPs for each of their covered
                    outpatient drugs. 11, 12 Originally, manufacturers were required to
                    calculate and report AMPs on a quarterly basis only, with submissions
                    due 30 days after the end of each quarter. However, pursuant to the
                    DRA, manufacturers must also calculate monthly AMPs, with
                    submissions due 30 days after the end of each month. 13, 14 If a drug
                    product has been discontinued, the manufacturer must provide CMS
                    with the product’s termination date and continue reporting quarterly
                    AMPs for the product for 1 full year after the termination date. 15, 16 The
                    manufacturer may stop reporting monthly AMPs beginning the first
                    month after the termination date of the drug. 17
                    Manufacturers transmit drug product data and AMP data for each
                    reporting period to CMS using the Drug Data Reporting for Medicaid
                    system (DDR). First, manufacturers must enter drug product data for
                    their covered 11-digit national drug codes (NDC), each of which
                    identifies a specific manufacturer, product, and package size. Once the
                    drug product data have been accepted by the system, manufacturers are
                    able to submit AMPs for the corresponding NDCs. The DDR reviews
                    manufacturers’ AMP submissions for data errors, notifies
                    manufacturers about potential problems, and may reject files with
                    detected errors. The DDR also displays the number of NDCs entered




                    11 Section 1927(b)(3) of the Act.
                    12 Sections 1927(k)(2-3) of the Act provide the definition of a covered outpatient drug.
                    13 Pursuant to section 6001(b)(1) of the DRA, manufacturers are required to report AMPs
                    on a monthly basis. The applicable regulations at 42 CFR § 447.510 specify that quarterly
                    pricing reports must include other information in addition to AMPs, such as customary
                    prompt pay discounts and “best prices” for single-source or innovator multiple-source drugs.
                    14 As specified in 42 CFR § 447.504(i), a quarterly AMP is now calculated as a weighted
                    average of monthly AMPs in the quarter. However, the manufacturer must adjust the AMP
                    for a quarter if cumulative discounts, rebates, or other arrangements subsequently adjust
                    the prices actually realized.
                    15 CMS, Medicaid Drug Rebate State Release Number 140 (March 15, 2006).
                    16 According to CMS, a drug’s termination date depends on the reason it is being
                    discontinued by the manufacturer. If a drug product is removed from the shelf immediately
                    because of a health or safety concern, the termination date is the date removed. Otherwise,
                    the termination date is the shelf life of the last batch sold.
                    17 Specifically, 42 CFR § 447.510(d)(5) states that manufacturers should not report monthly
                    AMPs for terminated drug products beginning with the first month after the expiration date
                    of the last lot sold (i.e., the termination date).



 OEI-03-09-00060    D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                               3
I N T R O D        U C T       I O N


                    into the system for which AMP data have yet to be reported. 18 After
                    resolving data errors (if any), manufacturers certify the AMP data in
                    the DDR.

                    AMP data must be certified within 30 days after the end of each month
                    and each quarter. Certified monthly data are uploaded to CMS’s FUL
                    database, whereas certified quarterly data are uploaded to the Medicaid
                    Drug Rebate (MDR) database. Information about the dates on which
                    AMPs were certified and uploaded is maintained in the DDR.
                    Penalties for Failure To Report Timely AMP Data
                    Manufacturers that fail to provide AMP data on a timely basis may be
                    subject to civil money penalties and/or termination from the drug rebate
                    program. Pursuant to section 1927(b)(3)(C)(i) of the Act, the Secretary
                    is authorized to impose a civil money penalty that increases by
                    $10,000 for each day that the required information (including quarterly
                    and monthly AMP data) has not been provided after applicable
                    deadlines. This section of the Act also specifies that if the required
                    prices are not reported within 90 days of the deadline, the
                    manufacturer’s rebate agreement will be suspended until the date that
                    the pricing information is reported. 19
                    The responsibility to impose penalties pursuant to section
                    1927(b)(3)(C)(i) of the Act has been delegated to OIG by the Secretary. 20
                    In the second quarter of 2006, CMS began referring noncompliant
                    manufacturers to OIG for the purpose of imposing civil money
                    penalties. 21 In response to CMS’s referrals, OIG has proposed that civil
                    money penalties be levied against manufacturers that fail to comply
                    with price reporting requirements.

                    CMS also has authority to terminate the rebate agreements of
                    manufacturers that fail to comply with AMP reporting requirements. 22

                    18 The DDR also allows the manufacturers themselves to run a missing data report, which

                    lists the NDCs that have no pricing data in the current period or any other period going
                    back to 1991.
                    19 Pursuant to section 1927(b)(3)(C)(i) of the Act, rebate agreements must be suspended for
                    no less than 30 days.
                    20 59 Fed. Reg. 52967 (Oct. 20, 1994).
                    21 CMS began referring noncompliant manufacturers to OIG in response to a 2005 report
                    entitled Deficiencies in the Oversight of the 340B Drug Pricing Program (OEI-05-02-00072).
                    As part of this report, OIG recommended that CMS consider referring manufacturers whose
                    pricing data submissions do not comply with reporting requirements to OIG so that
                    penalties could be imposed in appropriate cases.
                    22 Section 1927(b)(4)(B) of the Act.




 OEI-03-09-00060    D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                               4
I N T R O D        U C T        I O N


                    Specifically, CMS may terminate a rebate agreement “for violation of
                    the requirements of the agreement or other good cause shown.” 23 If a
                    rebate agreement is terminated by CMS, the manufacturer may not
                    enter into another rebate agreement for at least one quarter (with
                    certain exceptions). 24, 25
                    Previous OIG Work
                    Several OIG studies have found that some manufacturers may not be
                    submitting quarterly AMP data for all of their NDCs by the statutory
                    deadline. In one report, OIG found that almost 20 percent of 340B
                    ceiling prices in the first quarter of 2005 could not be calculated because
                    of missing AMP data. 26 Another OIG report identified 1,431 NDCs with
                    no AMP data during one or more quarters of 2008. 27 Manufacturers for
                    almost 60 percent of these NDCs participated in the MDR program in
                    2008 and were therefore generally required to submit AMP data.


                    METHODOLOGY
                    Scope
                    For this study, we examined both monthly and quarterly AMP data
                    from 2008 as reported in the MDR and FUL databases.

                    Rebate agreements are established by labeler code, which is a five-digit
                    number that identifies the manufacturer of a given drug product. Drug
                    companies and their subsidiaries may have one or more labeler codes.
                    For the purposes of this report, we consider each labeler code to be a
                    “manufacturer.”
                    Data Sources and Data Collection
                    We obtained from CMS a list of manufacturers that participated in the
                    Medicaid drug rebate program during 2008, including the effective
                    dates of the manufacturers’ rebate agreements and the termination



                    23 Pursuant to section 1927(b)(4)(B) of the Act, such termination shall not be effective
                    earlier than 60 days after the date of notice for the termination.
                    24 Section 1927(b)(4)(C) of the Act.
                    25 If, after one quarter, a manufacturer wants to reenter the program, CMS will begin the
                    reinstatement process. As part of that process, manufacturers must report all missing
                    pricing data to CMS and pay any outstanding rebate amounts (including interest) to States.
                    26 OIG,   Deficiencies in the Oversight of the 340B Drug Pricing Program, OEI-05-02-00072,
                    October 2005.
                    27 OIG,Comparison of Average Sales Prices and Average Manufacturer Prices: An
                    Overview of 2008, OEI-03-09-00350, February 2010.


 OEI-03-09-00060    D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                                 5
I N T R O D        U C T       I O N


                    dates (if any). 28 Using this list, we identified 592 manufacturers that
                    should have submitted AMP data for one or more quarters of 2008, and
                    579 manufacturers that should have submitted AMP data for 1 or more
                    months of 2008. (In 2008, more manufacturers were required to submit
                    quarterly AMPs than monthly AMPs because manufacturers of
                    terminated NDCs must continue reporting quarterly AMPs for 1 year
                    after the termination dates but need not report monthly AMPs after the
                    termination dates.) The number of manufacturers that were required to
                    submit AMP data in each individual month and quarter of 2008 is
                    specified in Table 1.

                    CMS also provided us with Medicaid drug product data for 2008, as
                    reported by manufacturers with rebate agreements. The data include
                    information such as the name and NDC of each covered outpatient drug,
                    the date each drug entered the market, and the termination date for the
                    drug (if applicable). Using the data provided by CMS, we identified
                    active NDCs for each month and quarter of 2008. Because CMS
                    requires manufacturers to report quarterly AMPs for a year after a
                    drug’s termination date, we also identified NDCs that were terminated
                    prior to 2008 but for which AMP data for one or more quarters of 2008
                    were still required. Table 1 shows the number of NDCs in each month
                    and quarter for which AMP data were required.

                    CMS additionally provided us with AMP data for each month and
                    quarter of 2008, including the dates on which the AMPs were initially
                    certified by manufacturers. All AMP data were current as of
                    July 16, 2009.

                    To determine whether CMS has taken action against manufacturers
                    that do not comply with AMP reporting requirements, we interviewed
                    CMS staff members who are responsible for monthly and quarterly
                    AMP data. We asked them to identify manufacturers that were either
                    terminated or referred to OIG for failure to comply with AMP reporting
                    requirements during 2008. 29, 30




                    28 Only manufacturers on CMS’s list are required to submit AMP data. Manufacturers

                    with no valid drug product data on file with CMS were excluded from our review.
                    29 Termination and referral data provided by CMS were current as of March 2010.
                    30 CMS referred or terminated manufacturers based on quarterly AMP data that were
                    available at the time of CMS’s own analyses.



 OEI-03-09-00060    D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                         6
I N T R O D           U C T         I O N


      Table 1: Number of NDCs in Each Month and Quarter for Which Average
      Manufacturer Price Data Were Required
        Quarter           Number of           Number of                              Number of            Number of
                                                               Month in 2008
        in 2008        Manufacturers             NDCs                             Manufacturers              NDCs

                                                                      January                 546             35,515
        First                      564             38,940            February                 547             35,544
                                                                        March                 549             35,545

                                                                          April               540             34,436
        Second                     555             37,565                 May                 542             34,416
                                                                          June                545             34,426

                                                                           July               543             34,451
        Third                      561             38,603              August                 546             35,533
                                                                   September                  551             35,579

                                                                      October                 549             35,261
        Fourth                     565             38,271           November                  551             35,246

                                                                    December                  555             35,252
      Source: OIG analysis of manufacturers, NDCs, and AMP data from all four quarters of 2008.
      Note: More manufacturers were required to submit quarterly AMPs for more NDCs than monthly AMPs because
      manufacturers of terminated NDCs must continue reporting quarterly AMPs for 1 year after the termination dates but
      need not report monthly AMPs after the termination dates.

                        Analysis of AMP Submissions
                        For each NDC included in our study, we determined the months and
                        quarters in 2008 for which AMPs were either not submitted or
                        submitted late. To accomplish this, we compared the AMP certification
                        date for each period to the due date of the data (i.e., 30 days after the
                        end of each period). Data without certification dates were considered
                        missing. Data certified after the due dates were considered late. If
                        AMP data were submitted late, we calculated the number of days that
                        elapsed between the due dates and the certification dates. We also
                        identified NDCs with missing or late AMP data in multiple
                        months/quarters. Using 2008 Medicaid utilization data posted on
                        CMS’s Web site, we also calculated Medicaid’s total expenditures for
                        each NDC during the period(s) for which that NDC’s AMP was missing
                        or late. 31
                        For each month and quarter in 2008, we then summarized results at the
                        NDC level to identify manufacturers with the following problems:




                        31 To estimate Medicaid expenditures for an NDC without AMP data in a given month, we
                        divided the total reimbursement amounts for the corresponding quarter by three.



 OEI-03-09-00060        D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                                           7
I N T R O D        U C T       I O N


                          Missing AMP data. Manufacturers with missing AMP data
                           submitted no AMP data for any of their NDCs during the
                           month/quarter.

                          Late AMP data. Manufacturers with late AMP data submitted
                           AMP data for all of their NDCs after the deadline.

                          Incomplete AMP data. Manufacturers with incomplete AMP data
                           fell into one of two categories: (1) manufacturers that submitted
                           at least some of their AMPs by the deadline but submitted the
                           remaining AMPs for the month/quarter either late or not at all or
                           (2) manufacturers that submitted a portion of their AMPs late and
                           never submitted the remaining AMPs for the month/quarter.

                    We then identified manufacturers that had missing, late, or incomplete
                    AMPs in multiple months or quarters.

                    We also identified manufacturers that CMS terminated or referred to
                    OIG for failure to submit monthly or quarterly data by the statutory
                    deadline. We then determined whether the manufacturers identified by
                    our analysis as having missing, late, or incomplete quarterly or monthly
                    AMP data were terminated by CMS or referred to OIG.
                    Limitations
                    We did not verify whether the NDCs provided by manufacturers for
                    each reporting period and subsequently listed in CMS’s drug product
                    file met the definition of a covered outpatient drug. 32 We also did not
                    examine whether AMP data initially reported by the applicable deadline
                    were later corrected and resubmitted by the manufacturers.

                    For NDCs with missing and late AMPs, we did not determine whether
                    manufacturers manually calculated rebate amounts and paid rebates to
                    States accordingly. 33 States may have received appropriate rebates
                    from manufacturers, even when those manufacturers did not comply
                    with quarterly reporting requirements. We also did not determine
                    whether NDCs with missing and late AMPs had Medicaid utilization in
                    2008.

                    Furthermore, we did not contact the manufacturers of NDCs with
                    missing AMPs to determine whether they discontinued the NDCs but
                    neglected to report termination dates to CMS. If NDCs with missing


                    32 As defined by sections 1927(k)(2-3) of the Act.
                    33 See Appendix A for a more detailed description of rebate calculations.




 OEI-03-09-00060    D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                     8
I N T R O D        U C T       I O N


                    AMPs were, in fact, discontinued and no longer required AMPs, the
                    number of manufacturers with missing and incomplete data in our
                    report may be overestimated.

                    OIG’s determinations of missing and late AMP data for a given period
                    were not always the same as those made by CMS for that same period.
                    This may have resulted from a number of factors. For instance, OIG
                    identified manufacturers as having late data if the data were submitted
                    any time after the due dates, whereas CMS identified manufacturers as
                    having late data if the data were submitted after the rebate amounts
                    were calculated. Also, CMS terminated or referred manufacturers
                    based on AMP data that were current at the time of CMS’s analysis,
                    whereas OIG analyzed more recently updated data.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-03-09-00060    D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                     9
F   I N D I N G        S
       F I N D I N G S


       In 2008, more than half of manufacturers          In 2008, 53 percent of
                                                         manufacturers that participated in
             did not fully comply with quarterly
                                                         the Medicaid drug rebate program
         submission requirements for AMP data
                                                         (313 of 592) failed to submit at least
                      some of their quarterly AMPs within the timeframes specified by
                      Federal requirements. These manufacturers had missing, late, or
                      incomplete AMP data during one or more quarters of 2008. When
                      manufacturers do not comply with quarterly reporting requirements,
                      CMS does not have complete data on which to base Medicaid rebates
                      and HRSA may be unable to establish ceiling prices under the 340B
                      program.
                      Manufacturers that repeatedly failed to comply with quarterly AMP
                      requirements did not always have the same problems (i.e., missing, late,
                      and incomplete data) with the same NDCs in each period. Some
                      manufacturers had different problems in different quarters. As a result,
                      those manufacturers were included in more than one of the missing,
                      late, and incomplete quarterly AMP categories described below. 34
                      Five percent of manufacturers failed to submit any quarterly AMP data in
                      one or more quarters of 2008
                      Of the 592 manufacturers under review, 31 (5 percent) did not submit
                      AMP data for any of their NDCs during at least one quarter of 2008.
                      More than half of these 31 manufacturers repeatedly failed to provide
                      the required AMP data during 2008. Specifically, 2 manufacturers did
                      not submit AMP data in 2 quarters, 11 did not submit AMP data in
                      3 quarters, and an additional 3 did not submit AMP data in all
                      4 quarters. Medicaid paid $3.8 million during the applicable quarters of
                      2008 for NDCs belonging to the 31 manufacturers that did not submit
                      the required AMP data.

                      Table B-1 in Appendix B lists the number and percentage of
                      manufacturers with no AMP data in each quarter, as well as the
                      number of NDCs associated with those manufacturers.
                      Almost one-fourth of manufacturers submitted all of their quarterly AMP
                      data after the deadline in one or more quarters of 2008
                      In 2008, 24 percent of manufacturers (144 of 592) submitted quarterly
                      AMP data for all of their NDCs after the deadline in at least one

                      34 Because manufacturers could have different problems in different quarters, the number
                      of manufacturers in each subfinding sums to more than the total number of manufacturers
                      that did not fully comply with quarterly AMP reporting requirements.



    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                             10
F   I N D I N G        S


                      quarter. One-third of these manufacturers (48 of 144) submitted late
                      AMP data in multiple quarters, with one manufacturer submitting
                      prices after the deadline in all four quarters.

                      The amount of time that passed before overdue AMPs were submitted
                      by these manufacturers varied by quarter. In the second and third
                      quarters of 2008, at least 80 percent of overdue AMPs were submitted
                      within 5 days of the deadline and no more than 5 percent of overdue
                      AMPs were more than 30 days late. However, manufacturers with late
                      AMPs in the first and last quarters of 2008 were slower to provide their
                      outstanding data. A little more than half of the overdue AMPs in the
                      first quarter were submitted within 5 days of the deadline, and only
                      20 percent of overdue AMPs in the fourth quarter were submitted
                      within 5 days. Furthermore, over one-third of the overdue AMPs in
                      each of these quarters were more than 30 days late.

                      CMS typically calculates Medicaid rebate amounts about 3 to 5 days
                      after the due date for the AMP data. If manufacturers submit AMP
                      data beyond that point, CMS cannot calculate the quarterly rebate
                      amounts for the corresponding NDCs. 35 It then becomes the
                      responsibility of the manufacturers to manually calculate the rebate
                      amounts and send the rebate payments to the States.

                      Table B-2 in Appendix B lists the number and percentage of
                      manufacturers that submitted all of their AMP data after the deadline
                      in each quarter, as well as the number of NDCs associated with those
                      manufacturers.
                      Almost one-third of manufacturers submitted incomplete quarterly AMP data
                      in one or more quarters of 2008
                      In 2008, 30 percent of manufacturers (180 of 592) submitted incomplete
                      AMP data in at least one quarter of 2008. Two-thirds of these
                      manufacturers (120 of 180) submitted incomplete data in multiple
                      quarters. As mentioned previously, manufacturers with incomplete
                      AMP data fell into one of two categories: (1) manufacturers that
                      submitted at least some of their AMPs by the deadline but submitted
                      the remaining AMPs for the quarter either late or not at all or
                      (2) manufacturers that submitted a portion of their AMPs late and
                      never submitted the remaining AMPs. For manufacturers in the first
                      category, an average of 60 percent of the outstanding AMPs in each

                      35 Overdue AMP data submitted after rebate amounts have been calculated for the quarter
                      are included with the following quarter’s transmission of rebate data from CMS to States.



    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                                  11
F   I N D I N G        S


                      quarter were never submitted. However, for manufacturers in the
                      second category, an average of only 3 percent of the outstanding AMPs
                      in each quarter were never submitted. Overall, the vast majority of
                      AMPs associated with manufacturers in the second category were
                      eventually provided to CMS.



                                                              In 2008, 78 percent of the
           In 2008, more than three-fourths of
                                                              manufacturers that were
       manufacturers did not fully comply with
                                                              required to submit monthly AMP
monthly submission requirements for AMP data                  data (453 of 579) failed to do so
                                                              within the timeframes specified
                      by Federal requirements. These manufacturers had missing, late, or
                      incomplete AMP data during 1 or more months of 2008. Because CMS
                      is currently prohibited from disclosing AMPs to States and from using
                      AMPs in a way that affects Medicaid reimbursement, problematic
                      monthly AMP submissions have little effect at this time. 36 In the
                      future, however, monthly AMPs may be used by CMS to establish FUL
                      amounts and by States to set Medicaid reimbursement amounts. If
                      manufacturers continue to report monthly AMPs either late or not at
                      all, CMS may be unable to establish appropriate future FUL amounts
                      and States may be unable to use AMPs to set future Medicaid
                      reimbursement rates.
                      Manufacturers that repeatedly failed to comply with monthly reporting
                      requirements did not always have the same problems for the same
                      NDCs in each period. Some manufacturers had different problems in
                      different months. As a result, those manufacturers were included in
                      more than one of the missing, late, and incomplete monthly AMP
                      categories described below. 37
                      Ten percent of manufacturers failed to submit any monthly AMP data in 1 or
                      more months of 2008
                      Of the 579 manufacturers under review, 57 (10 percent) did not submit
                      AMP data for any of their NDCs during at least 1 month of 2008. Forty
                      of these fifty-seven manufacturers repeatedly failed to provide the


                      36 Currently, CMS uses monthly AMP data only for internal calculations of AMP-based
                      FUL amounts.
                      37 Because manufacturers could have different problems in different months, the number of
                      manufacturers in each subfinding sums to more than the total number of manufacturers
                      that did not fully comply with monthly AMP reporting requirements.



    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                             12
F   I N D I N G        S


                      required AMP data during 2008, with 21 failing to submit AMP data in
                      7 or more months and 5 failing to submit monthly AMP data for all
                      12 months. Medicaid paid $29.4 million during the applicable months of
                      2008 for NDCs belonging to manufacturers that did not submit any of
                      the required AMP data.

                      Table C-1 in Appendix C lists the number and percentage of
                      manufacturers with no AMP data in each month, as well as the number
                      of NDCs associated with those manufacturers.
                      Over 40 percent of manufacturers submitted all of their monthly AMP data
                      after the deadline in 1 or more months of 2008
                      In 2008, 41 percent of manufacturers (235 of 579) submitted monthly
                      AMP data for all of their NDCs after the deadline in at least 1 month.
                      Almost two-thirds of these manufacturers (148 of 235) submitted late
                      AMP data in multiple months, with 23 manufacturers submitting prices
                      after the deadline in 6 or more months.

                      The amount of time that passed before these manufacturers submitted
                      their overdue AMPs varied from month to month. During 2008, the
                      percentage of late AMPs submitted within 5 days of each month’s
                      deadline ranged from 4 percent to 74 percent, with an average of
                      48 percent. The percentage of late AMPs submitted more than 30 days
                      after each month’s deadline ranged from 5 percent to 64 percent, with
                      an average of 31 percent.

                      Table C-2 in Appendix C lists the number and percentage of
                      manufacturers that submitted all of their AMP data after the deadline
                      in each month, as well as the number of NDCs associated with those
                      manufacturers.
                      Almost half of manufacturers submitted incomplete monthly AMP data in
                      1 or more months of 2008
                      In 2008, 46 percent of manufacturers (268 of 579) submitted incomplete
                      AMP data in at least 1 month. Of these manufacturers, 85 percent
                      (227 of 268) submitted incomplete AMP data in multiple months. As
                      with the quarterly data, manufacturers with incomplete monthly AMP
                      data fell into one of two categories: (1) manufacturers that submitted at
                      least some of their AMPs by the deadline but submitted the remaining
                      AMPs for the month either late or not at all or (2) manufacturers that
                      submitted a portion of their AMPs late and never submitted the
                      remaining AMPs. For manufacturers in the first category, an average
                      of 77 percent of the outstanding AMPs in each month were never
                      submitted. However, for manufacturers in the second category, an

    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                       13
F   I N D I N G        S


                      average of only 6 percent of the outstanding AMPs in each month were
                      never submitted. Typically, the vast majority of monthly AMPs
                      associated with manufacturers in the second category were eventually
                      provided to CMS.



CMS took action against some manufacturers for               Although CMS has instituted
  failure to comply with quarterly AMP reporting             procedures to penalize
                                                             manufacturers with
   requirements but took no action for failure to
                                                             consistently missing and late
    comply with monthly reporting requirements
                                                             quarterly AMP data, CMS has
                      no such procedures to penalize manufacturers with consistently missing
                      and late monthly AMP data.
                      CMS referred to OIG and/or terminated 78 manufacturers that failed to
                      comply with quarterly AMP reporting requirements in 2008
                      CMS staff take a number of actions against manufacturers with missing
                      and late quarterly AMP data. About 1 to 2 weeks after the due date, a
                      staff member emails manufacturers that missed the quarterly deadline,
                      prompting them to report the outstanding prices. Manufacturers with
                      missing data in at least two of the four previous quarters are
                      terminated by CMS. Manufacturers with late AMP submissions in at
                      least two of the four previous quarters are referred to OIG for potential
                      civil money penalties. 38 According to staff, CMS has the resources to
                      pursue only manufacturers that have missing or late data for all of their
                      NDCs. Although staff can compile reports identifying manufacturers
                      with incomplete AMP data, they do not currently have the resources to
                      pursue those manufacturers.

                      In total, 78 manufacturers were referred to OIG and/or terminated by
                      CMS for failure to comply with AMP reporting requirements in 2008.
                      Of these 78 manufacturers, 52 were only referred to OIG, 4 were only
                      terminated by CMS, and the remaining 22 were both referred to OIG
                      and subsequently terminated by CMS. 39
                      CMS effectively took action against manufacturers identified by OIG as
                      having missing quarterly AMP data. As shown in Table 2, CMS referred

                      38 CMS considers late data to be data submitted after the MDR database has been shut
                      down for the calculation of rebate amounts.
                      39 CMS’s actions were based on missing and late AMP submissions during all of the
                      four-quarter periods between the second quarter of 2007 and the third quarter of 2009.
                      Each of these four-quarter periods included at least one quarter of 2008.



    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                               14
F   I N D I N G               S


                            or terminated a large majority of the manufacturers that OIG identified
                            as having no AMP data in at least one quarter of 2008. In fact, CMS
                            took action against all but one of the manufacturers we identified as
                            having no AMP data in multiple quarters.

                            CMS also took action against manufacturers identified by OIG as having
                            late quarterly data, but to a lesser extent. Consistent with its policy to
                            penalize manufacturers that repeatedly submit late AMPs, CMS was
                            more likely to refer manufacturers identified by OIG as having multiple
                            quarters of late data. CMS penalized only 16 percent of the
                            manufacturers with late data in just one quarter. However, as shown in
                            Table 2, it took action against 48 percent of manufacturers with late
                            data in multiple quarters.

                            CMS took action against few manufacturers identified by OIG as having
                            incomplete data. Because CMS does not specifically pursue
                            manufacturers that submit incomplete quarterly AMPs, most of the
                            manufacturers that we identified as having incomplete quarterly data
                            were not penalized. However, as shown in Table 2, a small portion of
                            these manufacturers were nonetheless referred or terminated. 40

       Table 2: Manufacturers With Problematic Quarterly AMP Data That Were
       Referred or Terminated by CMS
                                                                                                                  Action

                                                                                                                                  Number
         Description of Problematic                   Total           Total                      Number          Number
                                                                                 Percentage                                      Referred,
         Quarterly AMP Data                      Number of         Number                        Referred     Terminated
                                                                                  Penalized                                          Then
         According to OIG Analysis            Manufacturers       Penalized                          Only           Only
                                                                                                                               Terminated

         Missing AMP data                                   31             27            87%             5                 3           19

            In multiple quarters                            16             15            94%             1                 2           12

         Late AMP data                                     144             38            26%            34                 0            4
            In multiple quarters                            48             23            48%            22                 0            1

         Incomplete AMP data                               180             19            11%            14                 1            4
            In multiple quarters                           120             12            10%            10                 1            1
      Source: OIG analysis of AMP data from the first through fourth quarters of 2008 and CMS data regarding terminated and
      referred manufacturers, 2009.
      Note: Because manufacturers could have different problems in different quarters and because the problems for which CMS
      terminated or referred manufacturers may not be the same as those identified by OIG in this study, the number of manufacturers
      that were terminated or referred in each problem category does not sum to the total number of manufacturers that were
      terminated or referred by CMS.



                            40 These manufacturers may have been referred or terminated because they had untimely
                            data in other quarters of 2008 or because CMS had different product or pricing information
                            at the time it conducted its analysis.



    OEI-03-09-00060         D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                                               15
F   I N D I N G        S



                      CMS took no direct action against manufacturers that failed to comply with
                      monthly AMP reporting requirements in 2008
                      CMS staff track manufacturers that report less than 90 percent of their
                      monthly AMP data; however, staff do not follow up with noncompliant
                      manufacturers unless those manufacturers contact CMS for another
                      reason. 41 If a manufacturer contacts CMS, staff will check to see
                      whether that manufacturer has been reporting monthly AMPs.
                      Manufacturers that have reported less than 90 percent of their AMP
                      data during at least 2 months are then instructed to report the
                      outstanding data. 42 CMS does not refer or terminate manufacturers
                      that fail to comply with monthly AMP reporting requirements.

                      Because monthly AMP data are currently used only for internal
                      calculations, CMS staff stated that they see no immediate need to
                      terminate manufacturers that fail to comply with monthly reporting
                      requirements.

                      Although CMS does not directly penalize manufacturers with missing,
                      late, or incomplete monthly AMPs, some of these noncompliant
                      manufacturers were referred or terminated by CMS because they also
                      had missing or late quarterly AMP data.

                      As shown in Table 3, more than half of manufacturers identified by OIG
                      as having missing monthly AMP data were referred or terminated by
                      CMS. Manufacturers with late and incomplete monthly data were
                      much less likely to be penalized.




                      41 Although CMS receives monthly reporting data on all manufacturers, it tracks only
                      manufacturers that have 30 or more NDCs.
                      42 Months of missing data do not need to be consecutive. They can be any 2 months of data
                      since October 2007, when manufacturers first started reporting monthly AMPs.



    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                             16
F   I N D I N G               S


      Table 3: Manufacturers With Problematic Monthly AMP Data That Were Referred
      or Terminated Because They Also Had Problematic Quarterly Data
                                                                                                                  Action

                                                                                                                                  Number
       Description of Problematic                     Total           Total                      Number          Number
                                                                                 Percentage                                      Referred,
       Monthly AMP Data According                Number of         Number                        Referred     Terminated
                                                                                  Penalized                                          Then
       to OIG Analysis                        Manufacturers       Penalized                          Only           Only
                                                                                                                               Terminated

       No AMP data                                          57             33            58%            11                 3           19
           In multiple months                               40             28            70%             7                 3           18

       Late AMP data                                       235             38            16%            29                 3            6
           In multiple months                              148             28            19%            23                 1            4

       Incomplete AMP data                                 268             22             8%            19                 0            3
           In multiple months                              227             17             7%            15                 0            2
      Source: OIG analysis of AMP data from all 12 months of 2008 and CMS data regarding terminated and referred
      manufacturers, 2009.
      Note: Because manufacturers could have different problems in different months, the number of manufacturers that were
      terminated or referred in each problem category does not sum to the total number of manufacturers that were terminated or
      referred by CMS.




    OEI-03-09-00060         D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                                                  17
R   E C O        M M E N D A T              I O N         S
       R E C O M M E N D A T I O N S




                      In 2008, more than half of the manufacturers that were required to
                      submit quarterly AMP data failed to comply with reporting
                      requirements in at least one quarter. Manufacturers were even less
                      likely to comply with monthly AMP reporting requirements, with more
                      than three-quarters having missing, late, or incomplete AMPs in at
                      least 1 month of 2008.

                      CMS takes action against manufacturers with missing and late
                      quarterly AMP data, including reminding noncompliant manufacturers
                      to submit quarterly data, terminating manufacturers that repeatedly
                      fail to submit quarterly AMPs, and referring manufacturers with
                      consistently late quarterly data to OIG for potential civil money
                      penalties.

                      However, CMS does not take any such action against manufacturers
                      with missing and late monthly AMPs. Although CMS tracks
                      manufacturers with no monthly AMP data, staff remind noncompliant
                      manufacturers to submit overdue data only if those manufacturers
                      initiate contact. Furthermore, CMS has yet to terminate or refer any
                      manufacturer for failure to comply with monthly AMP reporting
                      requirements.

                      Because AMP data play such a critical role in Government payments for
                      prescription drugs, CMS must ensure that action is taken against
                      noncompliant manufacturers. Drug manufacturers must also do their
                      part by reporting both quarterly and monthly AMP data to CMS in a
                      timely and accurate way.

                      To promote full compliance with quarterly and monthly AMP reporting
                      requirements and to help ensure that Medicaid and covered 340B
                      entities do not overpay for prescription drugs, we recommend that CMS:
                      Take action against manufacturers that submit incomplete quarterly AMP
                      data
                      Although CMS staff acknowledge that incomplete data are a problem,
                      they state that they do not currently have the resources to pursue
                      manufacturers that submit only some of their AMPs. CMS should
                      ensure that action is taken against manufacturers with incomplete
                      quarterly AMP data. To that end, we will provide CMS with more
                      detailed information about the manufacturers in this study with
                      incomplete quarterly AMP data.


    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                       18
R   E C O        M M E N D A T              I O N         S


                      Take action against manufacturers that fail to submit monthly AMP data in a
                      timely manner
                      Shortly after each monthly deadline, CMS should contact
                      manufacturers that fail to comply with monthly reporting requirements
                      and ask them to submit outstanding data. If manufacturers repeatedly
                      fail to report monthly AMP data or repeatedly submit them late, those
                      manufacturers should be either terminated by CMS or referred to OIG
                      for potential civil money penalties. Manufacturers with incomplete
                      monthly AMPs should also be addressed. These proactive steps will
                      signal the importance of complying with monthly AMP requirements
                      and help to ensure that CMS has complete monthly AMP data. This in
                      turn will enable CMS to better gauge the potential impact of
                      AMP-based FULs and to ensure the integrity of future FUL amounts.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with both recommendations and stated that it will begin
                      referring manufacturers that submit incomplete quarterly and monthly
                      data to OIG for civil money penalty consideration. OIG looks forward to
                      expanding its collaboration with CMS regarding administrative
                      remedies for noncompliance with AMP reporting requirements.

                      For the full text of CMS’s comments, see Appendix D.




    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                       19
   A P P E N D I X                     ~       A

                  Current and Future Uses of Average Manufacturer Price Data in
                  Federal Health Care Programs
                  Average manufacturer price (AMP) data play a critical role in
                  Government payments for prescription drugs. Quarterly AMPs are
                  currently used in both the Medicaid drug rebate program and the 340B
                  drug discount program, and monthly AMPs may be used in the future
                  for the purposes of Medicaid reimbursement.
                  The Medicaid Drug Rebate Program and AMPs
                  The Medicaid rebate amount for any given drug generally depends on
                  the quarterly AMP submitted by the manufacturer, as well as on
                  whether the drug is a brand-name or generic. For the purposes of the
                  Medicaid drug rebate program, drugs are classified as one of
                  three types: single-source, innovator multiple-source, or noninnovator
                  multiple-source. Manufacturers provide the Centers for Medicare &
                  Medicaid Services (CMS) with the drug type for each of their national
                  drug codes (NDC), in conjunction with AMP data. Manufacturers must
                  also provide a “best price” for each of their single-source and innovator
                  multiple-source drugs on a quarterly basis. 43 Using these data, CMS
                  calculates a unit rebate amount (URA) for each NDC and transmits that
                  information to States.
                  Manufacturers pay a higher Medicaid rebate for innovator drugs
                  (i.e., brands) than for noninnovator drugs (i.e., generics). From 1996
                  through 2009, the URA for single-source and innovator multiple-source
                  drugs was the greater of 15.1 percent of the AMP or the difference
                  between the AMP and best price. 44, 45 For noninnovator multiple-source
                  drugs, the URA was 11 percent of the AMP. 46




                  43 Sections 1927(b)(3)(A)(i)(II) and (c)(1)(C) of the Social Security Act (the Act). Generally
                  speaking, best price is defined as the lowest price available from the manufacturer to any
                  purchaser in the United States, with certain exceptions.
                  44 Section 1927(c) of the Act.
                  45 Effective January 2010, section 2501(a) of the Patient Protection and Affordable Care Act
                  (Affordable Care Act), P.L. 111-148, increases the URA for single-source and innovator
                  multiple-source drugs to the greater of 23.1 percent of the AMP or the difference between
                  AMP and best price (with certain exceptions).
                  46 Effective January 2010, section 2501(b) of the Affordable Care Act increases the URA for
                  noninnovator multiple-source drugs to 13 percent.




OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                               20
A   P   P E N D       I X       ~       A


                      If the pricing data result in a URA of zero47 or if a manufacturer does
                      not submit timely or complete pricing data, the manufacturer must
                      manually calculate the URA and send a rebate payment to the States. 48
                      The 340B Drug Discount Program and AMPs
                      In 1992, Congress amended the Public Health Service Act (PHS Act) to
                      include a new section entitled Limitation on Prices of Drugs Purchased
                      by Covered Entities. This change created the 340B program, which is a
                      discount drug program administered by the Health Resources and
                      Services Administration (HRSA). Under the 340B program, a
                      manufacturer agrees to sell covered outpatient drugs at or below a
                      specified ceiling price to qualified entities. These entities include
                      federally qualified health centers, Ryan White grantees, and
                      disproportionate share hospitals, among others. 49
                      The 340B discount is calculated using the same component information
                      that Medicaid uses to calculate rebates. 50 Specifically, the 340B
                      discount is equal to the AMP reduced by Medicaid’s URA. 51 Under an
                      intraagency agreement with CMS, HRSA calculates 340B ceiling prices
                      using quarterly AMP and URA data supplied by CMS.
                      Potential Uses of Monthly AMPs in the Medicaid Program
                      Currently, all 50 States and the District of Columbia (hereinafter
                      referred to as States) offer prescription drug coverage under Medicaid.
                      Medicaid beneficiaries typically obtain covered drugs from pharmacies,
                      which bill and are reimbursed by State Medicaid agencies using NDCs.
                      In 2008, Medicaid payments for prescription drugs totaled
                      approximately $24 billion. 52



                      47 According to CMS staff, if the quarterly AMP submitted by a manufacturer is
                      400 percent greater or 400 percent less than the previous quarter’s AMP, then an alert is
                      sent to the manufacturer and the URA is sent to the States as zero.
                      48 CMS, Medicaid Drug Rebate Data Guide for Labelers, p. 15.
                      49 For more information about covered entities, see HRSA, Introduction
                                                                                           to 340B Drug
                      Pricing Program, accessed at http://www.hrsa.gov on December 11, 2009.
                      50 HRSA,   Glossary of Pharmacy-Related Terms, accessed at http://www.hrsa.gov on
                      December 11, 2009.
                      51 Sections 340B(a)(1-2) of the PHS Act.
                      52 This total was calculated using national summary data for 2008, which were downloaded
                      from CMS’s Web site on July 30, 2009. This amount includes both Federal and State
                      payments. Rebates collected by States under the Medicaid drug rebate program were not
                      subtracted from this figure. Data for some States may not have been complete at the time
                      of extraction. Therefore, the 2008 drug expenditures presented in this report may
                      underestimate Medicaid’s actual expenditures.



    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                                  21
A   P   P E N D       I X       ~       A


                      Federal regulations require, with certain exceptions, that each State
                      Medicaid agency’s reimbursement for covered outpatient drugs not
                      exceed (in the aggregate) the lower of the estimated acquisition cost
                      plus a reasonable dispensing fee or the provider’s usual and customary
                      charge to the public for the drugs. 53 CMS allows States the flexibility to
                      define estimated acquisition cost, with most States basing their
                      calculations on a drug’s average wholesale price discounted by a certain
                      percentage. For certain drugs, States also use the Federal upper limit
                      (FUL) or State maximum allowable cost programs in setting
                      reimbursement amounts. 54
                      To reduce Medicaid prescription drug expenditures, the Deficit
                      Reduction Act of 2005 (DRA) 55 and the Affordable Care Act enacted a
                      number of changes that expand the role of AMPs in Medicaid payments
                      for prescription drugs. For example, the DRA requires CMS to disclose
                      AMP data to State Medicaid programs on a monthly basis, which would
                      enable States to use AMP data when setting Medicaid reimbursement
                      rates for prescription drugs. 56 In addition, the DRA and the Affordable
                      Care Act specify that AMPs are to be used to establish FUL amounts for
                      certain multiple-source drugs in the Medicaid program. Specifically,
                      FUL amounts under the Affordable Care Act are to be no less than
                      175 percent of the weighted average of the most recently reported
                      monthly AMPs. 57, 58
                      However, CMS has yet to disclose AMP data to States or use those
                      prices when establishing FUL amounts. On December 19, 2007, the
                      U.S. District Court for the District of Columbia preliminarily enjoined
                      CMS from disclosing AMP data to States and from using AMP for
                      purposes of Medicaid reimbursement. Although CMS may not currently


                      53 42 CFR § 447.512(b).
                      54 The FUL and State maximum allowable cost programs serve to control spending for
                      multiple-source drugs. CMS has established FUL amounts for more than 700 drugs. In
                      addition, almost all States have implemented maximum allowable cost programs to limit
                      reimbursement amounts for certain drugs.
                      55 P.L. 109-171.
                      56 Section 6001(b) of the DRA. Prior to the DRA, section 1927(b)(3)(D) of the Act broadly
                      guaranteed the confidentiality of AMP data reported by manufacturers (with certain limited
                      exceptions).
                      57 Section 2503(a)(1)(B) of the Affordable Care Act.
                      58 Section 6001(a)(2) of the DRA included a provision setting the FUL amount at
                      250 percent of the lowest reported AMP. The Affordable Care Act revised this provision,
                      setting the FUL amount at no less than 175 percent of the weighted average of the most
                      recently reported monthly AMPs.



    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                                  22
A   P   P E N D       I X       ~       A


                      implement AMP-based FULs, it calculates AMP-based FULs each
                      month for internal purposes.




    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                       23
            A    P
                     AP EP NP DE IN X D I ~ X A ~                    B

     Manufacturers With Missing and Late Quarterly Average Manufacturer Price Data




            Table B-1: Manufacturers That Failed To Submit Any Quarterly AMP Data
                                     Manufacturers                                       Corresponding NDCs
             Quarter
             in 2008                            Percentage                               Average             Median
                              Number With                             Number of                                                     Total
                                                      With                                    per                per
                              No AMP Data                                NDCs                                                 Reimbursed
                                               No AMP Data                           Manufacturer       Manufacturer

             First                      13              2.3%                  331                 25                10           $670,141

             Second                     16              2.9%                  373                 23                11           $924,055

             Third                      16              2.9%                  382                 24                11           $728,141

             Fourth                     19              3.4%                  204                 11                     7     $1,511,500

                 Total                                                                                                         $3,833,836
            Source: Office of Inspector General (OIG) analysis of average manufacturer price (AMP) data from the first through
            fourth quarters of 2008.
            Note: Reimbursement totals and average national drug codes (NDC) were rounded to the nearest whole number. Percentages
            were rounded to the nearest tenth.




Table B-2: Manufacturers That Submitted Late Quarterly AMP Data for All of Their NDCs
                     Manufacturers                                                   Corresponding NDCs

 Quarter                                                                                                   Between             More
                 Number       Percentage                      Average             Median        Up to 5
 in 2008                                     Number                                                        6 and 30          Than 30          Total
                With Late      With Late                           per                per        Days
                                             of NDCs                                                          Days             Days     Reimbursed
                AMP Data       AMP Data                   Manufacturer       Manufacturer         Late
                                                                                                               Late             Late

 First                   48          8.5%       1,232                 26                9.5      51.6%          9.8%          38.6%     $88,758,970

 Second                  54          9.7%       2,008                 37                 11      81.8%         16.5%           1.7%    $144,625,672

 Third                   56        10.0%        1,792                 32               11.5      90.1%          5.1%           4.9%    $250,565,315

 Fourth                  47          8.3%       1,629                 35                 11      20.0%         44.6%          35.5%    $145,141,051

    Total                                                                                                                              $629,091,008
Source: OIG analysis of AMP data from the first through fourth quarters of 2008.
Note: Reimbursement totals and average NDCs were rounded to the nearest whole number. Percentages were rounded to the nearest tenth.
Totals may not add to 100 percent because of rounding.




                OEI-03-09-00060         D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                                                            24
                    A P P E N D I X                        ~       C

        Manufacturers With Missing and Late Monthly Average Manufacturer Price Data

           Table C-1: Manufacturers That Failed To Submit Any Monthly AMP Data
                                   Manufacturers                                       Corresponding NDCs
            Month              Number         Percentage                               Average             Median
            in 2008                                                 Number of                                                     Total
                               With No              With                                    per                per
                                                                       NDCs                                                 Reimbursed
                              AMP Data       No AMP Data                           Manufacturer       Manufacturer

            January                   21                3.8%               2,721              130                 10           $491,470
            February                  19                3.5%                464                 24                10           $341,543
            March                     15                2.7%                409                 27                10           $255,732
            April                     25                4.6%                854                 34                10         $3,249,378
            May                       22                4.1%                547                 25                9.5        $2,472,201
            June                      23                4.2%                545                 24                10         $2,440,754
            July                      24                4.4%                556                 23                10         $3,932,949
            August                    26                4.8%                579                 22              10.5         $2,171,715
            September                 24                4.4%                569                 24              10.5         $2,135,650
            October                   24                4.4%                336                 14                8.5        $4,677,283
            November                  26                4.7%                398                 15                     9     $4,375,819
            December                  21                3.8%                384                 18                10         $2,809,279
               Total                                                                                                        $29,353,773
           Source: Office of Inspector General (OIG) analysis of average manufacturer price (AMP) data from all 12 months of 2008.
           Note: Reimbursement totals and average national drug codes (NDC) were rounded to the nearest whole number. Percentages
           were rounded to the nearest tenth.

Table C-2: Manufacturers That Submitted Late Monthly AMP Data for All of Their NDCs
                      Manufacturers                                                Corresponding NDCs

                    Number
Month                                                                                           Up to    Between             More
                      With   Percentage                       Average            Median
in 2008                                     Number                                                  5    6 and 30          Than 30          Total
                      Late    With Late                            per               per
                                            of NDCs                                             Days        Days             Days     Reimbursed
                      AMP     AMP Data                    Manufacturer      Manufacturer
                                                                                                 Late        Late             Late
                      Data

January                 74        13.6%         3,101                42               13.5     73.0%          6.2%          20.8%     $152,026,066
February               102        18.6%         2,552                 25                7.5    73.6%          5.4%          21.0%     $111,996,285
March                   30         5.5%           539                 18                  9    48.4%         19.7%          31.9%         $3,817,121
April                   42         7.8%         1,188                28                   6    29.7%          6.3%          64.0%      $28,587,091
May                     41          7.6%        1,052                 26                  8     3.9%         35.6%          60.6%      $24,665,287
June                    32         5.9%         1,118                35                 9.5    68.6%         17.7%          13.7%      $24,430,127
July                    79        14.5%         2,472                31                   9    70.7%          4.1%          25.2%     $142,456,629
August                  40         7.3%         1,438                36                   8    34.9%         60.0%           5.1%      $13,982,617
September               28         5.1%           433                 15                10     64.9%         19.9%          15.2%      $52,592,634
October                 83        15.1%         2,334                 28                11     61.0%         11.2%          27.8%      $89,580,991
November                35         6.4%         1,398                40                 11     24.3%         42.9%          32.8%      $14,785,657
December                35         6.3%         1,098                31                   8    21.7%         29.7%          48.6%      $42,879,873
   Total                                                                                                                             $701,800,378
Source: OIG analysis of AMP data from all 12 months of 2008.
Note: Reimbursement totals and average NDCs were rounded to the nearest whole number. Percentages were rounded to the nearest tenth.
Totals may not add to 100 percent because of rounding.


              OEI-03-09-00060         D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                                                          25
~         A PP PEN
          A    PEN 00                                 x
                                                      x                   oo

    Agency Comments
    Agency Comments




    ~   L.
    .~ 'n
     ,,,..~
    \;
                              DEPARTMENT OF
                              DEPARTMENT OF HEALTH   HUMAN SERVICES
                                            HEALTH & HUMAN  SERVICES                                                  Centers for Medicare
                                                                                                                      Centers for Medicare &
                                                                                                                                           & Medicaid
                                                                                                                                             Medioaid Services
                                                                                                                                                      Services


    ~~""'.4"'""C"'''",                                                                                                Office at the
                                                                                                                      Office at the Administrator
                                                                                                                                    Administrator
                                                                                                                     Washing1on,
                                                                                                                     Washinglon, DC 20201
                                                                                                                                 DC 20201



                                                  jUL 00 77 2010
                                                  jUL        2010
                          DATE:
                          DATE:

                          TO:
                          TO:               Daniel R. Levinson
                                            lnswector General

                         FROM: V
                         FROM:              !V:IikifYif'Eavenn~
                                            Actlng""\(\@ninistrator
                                                                   /S/
                                                                     and
                                                     "d inistrator and    Chief Operating
                                                                       Chief              Officer
                                                                                Operating Officer


                         SUB.TEeT:
                         SUB.TEeT: Office
                                     OfficeofofInspectoJ:
                                                 Inspector General
                                                            General (OlG)
                                                                     {OlG} Draft
                                                                           Draft Report:
                                                                                 Report: "Timely
                                                                                          "Timely Submission
                                                                                                   Submission of
                                                                                                              of Average
                                                                                                                 Average
                                    Mamlfacturer Price
                                    Manufacturer            Data" (OEI-03-09-00060)
                                                      Price Data"  (OEI-03-09-00060)


                         Thank
                         Thank youyou for
                                       for the  opportunity to
                                           the opportunity      to review
                                                                   reviewimdand comment
                                                                                 comment on   on the
                                                                                                  the sub]
                                                                                                      subject
                                                                                                            ectOlG
                                                                                                                 OlGdraft
                                                                                                                      draf report.
                                                                                                                            report. In
                                                                                                                                    In this
                                                                                                                                       this
                         report, the OIG
                         report,      010 sought
                                             sought to determine
                                                         determine whether
                                                                      whether manufacturers         submitted 2008
                                                                                 manufacturers submitted         2008 Average
                                                                                                                      Average
                         ManufacturerPrices
                         ManufacturePdces (AMPs) (AMPs) to    to the  Centersforfor
                                                                 the Centers        Medicare
                                                                                 Medìcare        & Medicaid
                                                                                           & Medicaid Services Services (CMS)      within the
                                                                                                                          (CMS) within      the
                         time frames
                         time           specifed by by
                               frames specified         Federal
                                                     Federal      requirements, and
                                                             requirements,          and whether
                                                                                          whether CMSCMS has    taken action against
                                                                                                            hasrakenaction     against
                         manufàcturers
                         manufacturers that that did
                                                 did not
                                                      not submit
                                                           submit AMPAMP data     within those
                                                                           data within            specifed timeftanies.
                                                                                          those specified    tirneframes.

                         Section
                         Section i1927
                                     927 of the    Social Security
                                              the Social   Security Act (the (the Act)
                                                                                   Act) sets
                                                                                          sets forth price reporting
                                                                                               forth price  reporting rcquirements     for
                                                                                                                        requirements for
                         manufacturers
                         manufacturers that      paiticipate in
                                            that participate    in the
                                                                   the Medicaid
                                                                         Medicaid DrugDrug Rebate
                                                                                             Rebate Program,
                                                                                                      Program, including
                                                                                                                  including the requirement
                                                                                                                                 requirement
                         for manufactUlcl's
                              manufacturers to   tò report
                                                     report both
                                                            both quarterly
                                                                    quartcrly andandmonthly
                                                                                      monthly AMPs
                                                                                                 AMPs to,CMS,
                                                                                                         to.CMS. Quarterly
                                                                                                                     Quarterly AMPs
                                                                                                                                AMPs areare
                         usedtotocalculate
                         used      calculaterebate
                                               rebate  amounts
                                                   amounts that arethat
                                                                      owedare
                                                                           to owed    to the
                                                                               the States  by States by the
                                                                                                         the manufacturers,
                                                                                                              manufacturers, and are also
                         used
                         used toto establish
                                   establish ceiling
                                               ceilng prices
                                                        prices inin the
                                                                     the 3408
                                                                          340B program
                                                                                  program administered
                                                                                             administered by by the
                                                                                                                 the Health
                                                                                                                     Health Resourecs
                                                                                                                              Resources and
                         ServicesAdministration.
                         Services   Administration.Although the use ofthe use of monthly
                                                          Although                              AMPs to calculate
                                                                                     monthly AMPs                      the Pederal
                                                                                                           calculate the   Federal Upper
                                                                                                                                     Upper
                         Limits(FULs)
                         Limits   (FULs)    under
                                       LUider       42447.514
                                               42 CFR   CFR is 447.514
                                                                  currentlyis prohibited
                                                                               currently prohibited by by aa court
                                                                                                             court injunction,
                                                                                                                    injunction, the
                                                                                                                                 the
                         Affordable Care
                         Affordable    Care ActAct revises
                                                    revises the
                                                              the methodology
                                                                   methodology ofthe         FULs program,
                                                                                     otthe FULs     program, but
                                                                                                               but continues
                                                                                                                     continues to use
                         manufacturer
                         manufacturer submitted         monthly AMPs
                                          submitted monthly         AMPs to calculate
                                                                                 calculate the FUL.
                                                                                                 FUL.

                         Section
                         Section 1927
                                  1927 ofof the Act states
                                            the Act  states that
                                                            that manufactures
                                                                 manufactures that
                                                                                that fail
                                                                                     fail to
                                                                                           to pl'oviclc
                                                                                              pl'ovice therequired
                                                                                                        tlerequired AMPAMP data
                                                                                                                             data by
                                                                                                                                  by
                         the
                         the specified
                             specified deadLines    may be
                                        deadlines may     be subject
                                                             subject to civil monetary peri/dties
                                                                        ciVil monetary                and/or termination
                                                                                          penalttes and/or     termination from the
                         Mcdicaid    I)nig Rebate
                         Medicaid Drug              Program. The
                                           Rebate Program.      The report
                                                                     report notes
                                                                            notes that theatithodty to
                                                                                  that the.authority    to issue
                                                                                                            issue civil
                                                                                                                  civil monetary
                                                                                                                        monetary
                         penalties
                         penalties against
                                    against non-compliant
                                             non-compliant manutàcturcrs
                                                              manufacturers has
                                                                              has been.delegated
                                                                                   heen-delegated to  to the OIG.
                                                                                                              OIG.

                         omFindings
                         om Findings

                         The orG found that, in 2008, more than half of manufacturers did not
                         The orG found that, in 2008, more t1an half of manufacturel's did not fully  comply with
                                                                                                fully comply with
                         quarerly submission
                         quarterly  submission requirements
                                               requirements far
                                                            for AMP
                                                                AMP data
                                                                     data and mOre  t1anthrce-fourhs
                                                                              more than  three-fourths of
                                                                                                        of manufacturers
                                                                                                           manufacturers
                         did not fully
                         did      fuJly comply
                                        comply with
                                               with montlly
                                                    monthly AMP
                                                            AMP submissiOn
                                                                 submission requirements.
                                                                             requirements.

                         In addition,
                         In               the OlG
                              addition, the    OlG found
                                                     found that
                                                             that CMS
                                                                  CMS took
                                                                         took action
                                                                                action again::>tsome.manufacturers
                                                                                        against somemanutacturers for  for failing
                                                                                                                            failng to
                         comply
                         comply     with quarterly
                                    with   quarerly AMPAMP reporting
                                                              reporting requirements,
                                                                          requirements, butbut took
                                                                                                took no
                                                                                                     no action
                                                                                                        action for
                                                                                                               for faìlng
                                                                                                                   failing toto comply
                                                                                                                                 comply
                         with     monthlyrepörting
                         with moiithly      reporting   requirements.
                                                   requirements. 1n total,In            manufacturers were
                                                                           78 total, 78rnanufacturers   were referred
                                                                                                              referred to the
                                                                                                                           the OIG
                                                                                                                                 DIG and/or
                                                                                                                                      and/or
                         terminated
                         terminated     by CMS.     for failing to
                                             CMS forfailing      to comply
                                                                    comply withwith quarterly
                                                                                     quarerly l'eporting
                                                                                               reporting requirements
                                                                                                         requirernents inin 2008.
                                                                                                                            2008.




OEI.03.09.00060
OEI·03·09·00060                        DRUG MANUFACTURERS'
                                       DRUG MANUFACTURERS' NONCOMPLIANCE
                                                           NONCOMPLIANCE WITH AMP
                                                                         WITH AMP REPORTING
                                                                                  REPORTING REQUIREMENTS
                                                                                            REQUIREMENTS
                                                                                                                                                        26
A   P   P E N D       I X       ~       D




    OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                       27
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director, Prescription Drug Pricing
                  Unit.

                  Lauren McNulty served as the team leader for this study. Central office
                  staff who contributed include Natasha Franklin and Rita Wurm.




OEI-03-09-00060   D RUG M ANUFACTURERS’ NO NCOM PLIANCE W IT H AM P REPO RT ING REQ UI REM ENT S
                                                                                                   28
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
